TABLE OF CONTENTS
APP’X DOCUMENT

PAGE

A

Opinion (5th Cir. July 31, 2019) ............1a

B

Memorandum Opinion and Order
(S.D. Tex. Nov. 18, 2014) ...................... 20a

C

Ayestas v. Stephens,
817 F.3d 888 (5th Cir. 2016)................. 35a

D

Ayestas v. Stephens,
826 F.3d 214 (5th Cir. 2016)................. 56a

E

U.S. CONST. AMEND. VI ......................... 58a

F

18 U.S.C. § 3599.................................... 59a

1a
APPENDIX A
IN THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT
No. 15-70015

United States Court of
Appeals
Fifth Circuit
FILED
July 31, 2019
Lyle W. Cayce

CARLOS MANUEL AYESTAS, also known as
Dennis Zelaya Corea,
Petitioner-Appellant
v.

LORIE DAVIS, DIRECTOR, TEXAS
DEPARTMENT OF CRIMINAL JUSTICE,
CORRECTIONAL INSTITUTIONS DIVISION,
Respondent-Appellee
Appeal from the United States District Court
for the Southern District of Texas
ON REMAND FROM THE
SUPREME COURT OF THE UNITED STATES
Before SMITH, SOUTHWICK, and HO, Circuit
Judges.
LESLIE H. SOUTHWICK, Circuit Judge:
Carlos Manuel Ayestas is a prisoner on death row
in Texas. We previously affirmed the district court’s
denial of his request under 18 U.S.C. § 3599(f) for
investigatory funding because he had not shown a
“substantial need” that made the funds “reasonably
necessary” to the representation. The Supreme Court

2a
held the statute does not require a showing of
“substantial need” and remanded with instructions to
consider only whether funding is “reasonably
necessary.”
We conclude that investigatory funding is not
reasonably necessary because nothing would
establish the ineffectiveness of state-habeas counsel,
a gateway requirement for him to overcome the
procedural default of his claim that his trial counsel
was ineffective for failing to present certain
mitigating evidence of substance abuse and mental
illness. AFFIRMED.
FACTUAL AND PROCEDURAL BACKGROUND
In 1997, Carlos Manuel Ayestas was convicted of
murdering Santiaga Paneque, a 67-year-old Houston
woman, after he and two accomplices broke into her
home one morning. Paneque’s son discovered her body
when he returned home for lunch. He testified at
sentencing that it had been important to his mother
that he become a United States citizen, and that he
had wanted her at his naturalization ceremony,
which occurred two days after her death. The Texas
Court of Criminal Appeals affirmed Ayestas’s
conviction and death sentence in 1998; that court
denied his application for a writ of habeas corpus in
2008.
We have previously described in detail Ayestas’s
federal-habeas proceedings. Ayestas v. Stephens, 817
F.3d 888, 892-94 (5th Cir. 2016), vacated sub nom.
Ayestas v. Davis, 138 S. Ct. 1080 (2018). We explain
here some recent developments. In 2014, the district
court denied Ayestas’s federal habeas application as
well as his ex parte motion for additional investigatory
funding pursuant to 18 U.S.C. § 3599(f). With respect

3a
to the Section 3599(f) motion, the district court recited
then-controlling precedent that Ayestas was required
to show a “substantial need” for investigative
assistance, as well as the statutory requirement that
the assistance be “reasonably necessary” to the
representation. See Brown v. Stephens, 762 F.3d 454,
459 (5th Cir. 2014); § 3599(f).
The district court then denied multiple postjudgment motions, including some based on a newly
discovered “Capital Murder Summary memorandum,
prepared by the prosecution, stating that Ayestas’s
lack
of
citizenship
was
an
‘aggravating
circumstance[].’” Ayestas, 817 F.3d at 894. On appeal,
we affirmed the denial of Ayestas’s motions for
investigatory funding, to stay proceedings to allow
exhaustion of new claims in state court, and to
supplement his habeas application with new
evidence. Id. at 892. We also denied Ayestas’s request
for a certificate of appealability to appeal the denial
of his habeas application. Id.
The Supreme Court granted certiorari on the
denial of investigatory funding under Section 3599(f),
then vacated and remanded for further proceedings.
Ayestas, 138 S. Ct. 1080. The Court rejected that an
applicant must show a “substantial need” or present
“a viable constitutional claim that is not procedurally
barred.” Id. at 1093 (citation omitted). Instead,
funding may be reasonably necessary when it “stands
a credible chance of enabling a habeas petitioner to
overcome the obstacle of procedural default.” Id. at
1094. The Court instructed that “the ‘reasonably
necessary’ standard thus requires courts to consider
the potential merit of the claims that the applicant
wants to pursue, the likelihood that the services will

4a
generate useful and admissible evidence, and the
prospect that the applicant will be able to clear any
procedural hurdles standing in the way.” Id.
Ayestas contends that investigatory funding is
reasonably necessary to develop claims that his trial
counsel was ineffective for failing to present
mitigating evidence of his substance abuse and
mental illness at sentencing. See Wiggins v. Smith,
539 U.S. 510 (2003). A prison psychologist first
diagnosed Ayestas as schizophrenic in 2003 when his
state-habeas application was still pending.
DISCUSSION
We review the district court’s denial of a Section
3599(f) motion for an abuse of discretion. Hill v.
Johnson, 210 F.3d 481, 487 (5th Cir. 2000). “A district
court abuses its discretion if it bases its decision on an
erroneous view of the law or on a clearly erroneous
assessment of the evidence.” Perez v. Stephens, 745
F.3d 174, 177 (5th Cir. 2014) (citation omitted). When
reviewing for abuse of discretion, the “underlying
conclusions of law are reviewed de novo and
conclusions of fact are reviewed for clear error.”
Aguilar-Ayala v. Ruiz, 973 F.2d 411, 416 (5th Cir.
1992) (citation omitted).
Since the Supreme Court’s Ayestas decision, we
have remanded some Section 3599(f) denials for
reconsideration by the district court. E.g., Sorto v.
Davis, 716 F. App’x 366 (5th Cir. 2018). Remand is not
required “if the judgment is sustainable for any
reason.” Af-Cap, Inc. v. Republic of Congo, 462 F.3d
417, 425 (5th Cir. 2006). For that reason, other panels
have affirmed pre-Ayestas denials where “the reasons
the district court gave for its ruling remain sound.”

5a
Jones v. Davis, 927 F.3d 365, 374 (5th Cir. 2019)
(citation omitted).
I. Section 3599(f) Motion for Investigatory Funding
The district court denied the Section 3599(f)
motion for these reasons: Ayestas “fail[ed] to
demonstrate that [1] trial counsel was deficient, [2]
that there [was] a reasonable probability that his
claimed evidence of substance abuse would have
changed the outcome of either his trial or his state
habeas corpus proceeding, or [3] that his state habeas
counsel was ineffective.”
Whether the district court’s reliance on the first
two reasons abused its discretion under the standard
described in the Supreme Court’s Ayestas decision are
close questions because of the district court’s
emphasis on existing as opposed to potential evidence.
The district court’s third reason for denying funding
was that state-habeas counsel was not ineffective.
Ayestas must establish that his state-habeas counsel
was ineffective to overcome the procedural default of
claims based on failures to present mitigating
evidence of substance abuse and mental illness. See
Trevino v. Thaler, 569 U.S. 413 (2013). If the district
court’s assessment of effectiveness is valid, then the
district court did not abuse its discretion by denying
funding regardless of any potential error in the other
stated reasons.
We previously concluded that Ayestas’s statehabeas counsel was not constitutionally ineffective.
Ayestas, 817 F.3d at 898. Nonetheless, the Supreme
Court has informed us to consider “the prospect that
the applicant will be able to clear any procedural
hurdles standing in the way.” Ayestas, 138 S. Ct. at
1094. This means assessing whether the investigation

6a
“stands a credible chance of enabling a habeas
petitioner to overcome the obstacle of procedural
default.” Id. If no credible chance exists, then the
investigation is not reasonably necessary regardless
of the Wiggins claims’ viability or the likelihood of
uncovering admissible evidence. That is because “it
would not be reasonable — in fact, it would be quite
unreasonable — to think that services are necessary
to the applicant’s representation if, realistically
speaking, they stand little hope of helping him win
relief.” Id.
A. State-Habeas Counsel’s Effectiveness
The question then is whether state-habeas
counsel’s decision not to bring these specific claims
fell outside of “prevailing professional norms” given
any signs that mental illness and substance abuse
went uninvestigated by trial counsel and in light of
the post-conviction claims that were advanced
instead. See Strickland v. Washington, 466 U.S. 668
(1984).
i. Prevailing Professional Norms
Capital
defense
practices
have
changed
1
significantly over the past 30 years. The Supreme
Court, though, has made clear that counsel’s
performance is to be evaluated based on “the
professional
norms
prevailing
when
the

See Russell Stetler & W. Bradley Wendel, The ABA Guidelines
and the Norms of Capital Defense Representation, 41 HOFSTRA L.
REV. 635, 695 (2013) (“Counsel’s duty to conduct thorough
mitigation investigation in death penalty cases must be
understood in terms of the evolving standards of the specialized
capital defense bar — a bar that has been increasingly successful
in avoiding death sentences.”).
1

7a
representation took place.” Bobby v. Van Hook, 558
U.S. 4, 7 (2009).
Scrutiny of mitigation investigations did not take
shape until well after Ayestas’s state-habeas
application was filed in 1998. At that time, the ABA
guidelines spoke only briefly to the duties for postconviction counsel. ABA GUIDELINES FOR THE
APPOINTMENT AND PERFORMANCE OF COUNSEL IN
DEATH PENALTY CASES 11.9.3, p. 126 (1989).2
Ayestas’s current request for funding closely tracks
supplementary ABA guidelines, but their “probative
value . . . is diminished by the fact that they were
adopted” a decade after the state-habeas application
was filed. Druery v. Thaler, 647 F.3d 535, 541 n.2 (5th
Cir. 2011); see ABA SUPPLEMENTARY GUIDELINES FOR
THE MITIGATION FUNCTION OF DEFENSE TEAMS IN
DEATH PENALTY CASES (2008).
Ayestas’s state-habeas attorney in 1998 would not
have found much in the case law for claims based
upon mitigating evidence of substance abuse and
GUIDELINE 11.9.3 DUTIES OF POSTCONVICTION
COUNSEL
A. Postconviction counsel should be familiar with all state
and federal postconviction remedies available to the client.
B. Postconviction counsel should interview the client, and
previous counsel if possible, about the case. Counsel should
consider conducting a full investigation of the case, relating to
both the guilt/innocence and sentencing phases. Postconviction
counsel should obtain and review a complete record of all court
proceedings relevant to the case. With the consent of the client,
postconviction counsel should obtain and review all prior
counsel’s files.
C. Postconviction counsel should seek to present to the
appropriate court or courts all arguably meritorious issues,
including challenges to overly restrictive rules governing
postconviction proceedings.

2

8a
mental illness. In 1998, the most relevant authority
was likely Strickland itself, which held that “[t]rial
counsel could reasonably surmise from his
conversations with [his client] that character and
psychological evidence would be of little help.”
Strickland, 466 U.S. at 699.
No authority cited now by Ayestas that addresses
mitigating evidence even existed when his statehabeas application was filed in December 1998. See
Wiggins v. Smith, 539 U.S. 510 (2003); Rompilla v.
Beard, 545 U.S. 374, 393 (2005); Porter v. McCollum,
558 U.S. 30, 39 (2009).
“Starting with Williams v. Taylor in 2000, and
then continuing with Wiggins v. Smith in 2003, and
Rompilla v. Beard in 2005, the Court launched a
series of decisions emphasizing the importance of
thorough mitigation investigation in capital defense
cases.” Emily Hughes, Mitigating Death, 18
CORNELL J.L. & PUB. POL’Y 337, 352 (2009)
(citations omitted). In fact, the 2000 decision in
Williams was “the first time [the Supreme Court]
overturned a death sentence under the Strickland
standard.” Stephen F. Smith, The Supreme Court and
the Politics of Death, 94 VA. L. REV. 283, 353 (2008)
(citation omitted). Importantly, none of these cases
established retroactive constitutional rules.
In 1998, then, there was little to indicate to statehabeas counsel that the failure to develop substance
abuse and mental illness evidence was an egregious
omission, particularly when compared to the failure
to secure testimony from his family. Ayestas’s counsel
pursued that evidence. In fact, just a year before the
state-habeas application was filed, we explicitly
characterized an ineffective assistance claim “for

9a
failing to present mitigating lay testimony from
family or friends” as a “stronger argument” than a
claim premised on “failing to locate an expert who
would conclude that [the defendant] was retarded or
suffered from mental illness.” Williams v. Cain, 125
F.3d 269, 278 (5th Cir. 1997). The “double-edged”
nature of substance abuse and mental illness
evidence and the state of the law before 2000 would
have likely made those claims seem unlikely to
succeed. See, e.g., Boyle v. Johnson, 93 F.3d 180, 18788 (5th Cir. 1996); Jonathan P. Tomes, Damned If You
Do, Damned If You Don’t: The Use of Mitigation
Experts in Death Penalty Litigation, 24 AM. J. CRIM.
L. 359, 360-61 (1997).
In one representative case, the petitioner had
argued his counsel “failed to present significant
mitigating evidence that was either known to his
counsel or should have been known to his counsel”
including “evidence of his mental illness, violent
family background, economic deprivation, voluntary
intoxication, drug and alcohol addictions, and
testimony as to his many positive traits.” Boyle, 93
F.3d at 187. We held he “failed to establish that his
counsel was deficient at trial” given trial counsel’s
testimony in state-habeas proceedings that this
“would have been aggravating,” and because “all the
evidence that [the applicant] maintain[ed] should
have been presented at the punishment phase of his
capital murder trial had a double-edged quality.” Id.
at 187-88.
We acknowledge that evaluating performance
against prevailing professional norms is complicated
when standard practices raise constitutional
concerns. As one Fifth Circuit judge observed, “[i]n

10a
Texas, the most active state in the carrying out of
death sentences, we have often failed to live up to our
ideal of justice. The failure of lawyers, judges,
prosecutors, and defense counsel to perform as
professionals is now well-documented.” Patrick E.
Higginbotham, A Reflection on Furman, 34 AM. J.
CRIM. L. 199, 204 (2007).
In this instance, though, the record shows that
state-habeas counsel provided aggressive, competent,
and professional representation.
ii. Analysis
Ayestas’s state-habeas counsel, J. Gary Hart, has
never been publicly disciplined for any reason. In
December 1998, eleven months after being appointed,
Ayestas’s state-habeas counsel filed a 70-page
application for relief raising several constitutional
claims:
Claims 1–10. That ten distinct actions or
omissions by Ayestas’s trial counsel, including
the failure to present mitigating evidence, each
denied Ayestas effective assistance in violation
of the Sixth Amendment;
Claims 11–13. That the failure to inform
Ayestas of his right, under an international
treaty, to consult with the Honduran Consul
prevented him from presenting mitigating
evidence in violation the Eighth Amendment,
the Fourteenth Amendment, and the Sixth
Amendment’s compulsory process clause;
Claims 14–15. That the state knowingly
presented false testimony from a witness at the
guilt phase of the trial in violation of the
Fourteenth
Amendment,
and
at
the

11a
punishment phase in violation of the Eighth
Amendment;
Claim 16. That the state suppressed
impeachment evidence in violation of the
Fourteenth Amendment due process clause.
Hart did not merely repeat claims raised in the
direct appeal. In fact, there is virtually no overlap
between them. Hart’s independent efforts are also
represented in the extra-record evidence that he
developed and attached to the initial state-habeas
application, which included affidavits from a forensic
pathologist, Ayestas himself, three of Ayestas’s family
members, and one of the jurors that sentenced
Ayestas to death, as well as documents from the
Honduran government and a letter from an
independent fingerprint examiner.
In summary, state-habeas counsel raised ten
ineffective assistance of trial counsel (“IATC”) claims,
including multiple claims premised on a failure to
present certain mitigating evidence. Specifically,
state-habeas counsel argued that Ayestas was
prejudiced by the failure to present mitigating
testimony from family members that he had no
criminal record in Honduras and that he had lived a
normal life. In other words, this claim was the
opposite of what would likely be shown by evidence of
mental illness and substance abuse, which as
mentioned already had little support in the case law
at the time.
The omission of these claims was not because
state-habeas counsel was unaware of the mental
illness and substance abuse. State-habeas counsel
had access to the psychological and disciplinary
records subpoenaed by trial counsel’s investigator.

12a
That trial investigator provided Ayestas with a
questionnaire, and state-habeas counsel had
Ayestas’s responses where he identified a history of
head traumas and “admitted to drinking alcohol since
he was 16 years old and to doing cocaine at least once
a week, which became more frequent as he slipped
into the grips of addiction.”
Despite the relative novelty of mitigation
specialists,3 state-habeas counsel hired one shortly
after being appointed. That specialist advised:
It is clear the defendant had a history of
substance abuse. What we know from
reviewing the trial evidence is that Ayestas
probably abused heroine and/or cocaine while
in California: that he had what appeared to be
a drug-related run-in with alleged victim
Martinez in Houston days after this murder,
and that he had gotten so drunk he “passed out”
on the day of his arrest. Would there have been
a defense to his conduct due to some sort of
addiction? We should look at substance abuse
as mitigation.

Judge Berrigan, who “as a lawyer, handled the penalty phase
of a number of capital cases in the 1980s and early 1990s on a
pro bono basis” has written that she “had never heard of a
mitigation specialist.” Helen G. Berrigan, The Indispensable
Role of the Mitigation Specialist in A Capital Case: A View from
the Federal Bench, 36 HOFSTRA L. REV. 819, 819 n.a1 (2008).
“She did her own investigation and . . . [f]or witnesses, she
generally had only family members and a psychologist.” Id. See
also Murphy v. Davis, 737 F. App’x 693, 705 (5th Cir. 2018)
(“Before Wiggins, counsel said lawyers still had to conduct a
mitigation investigation, but it was not incumbent upon lawyers
to retain a mitigation expert.”).
3

13a
Hart commented in his handwritten notes: “Ayestas’s
drinking and/or drug consumption as a possible
mitigating fact. How could this have been developed
at trial?”
Prior to filing the initial state-habeas application,
Hart requested investigatory funding based on his
mitigation specialist’s recommendations that he
estimated would cost $15,000.4 However, recognizing
an existing “policy to authorize no more than
$2,500.00 for investigative expenses to begin with,”
Hart requested only that amount. The state court
granted only $1,500. State-habeas counsel managed
to obtain only an additional $1,000 in investigatory
funding before he filed the initial application, after
which further requests were denied. See TEX. CODE
CRIM. PROC. ANN. art. 11.071 § 3(b) (requiring
prepayment requests to be filed no later than 30 days
before filing of initial application).
“Although courts may not indulge ‘post hoc
rationalization’ for counsel’s decisionmaking that
contradicts the available evidence of counsel’s actions,
neither may they insist counsel confirm every aspect
of the strategic basis for his or her actions.”
Harrington v. Richter, 562 U.S. 86, 109 (2011)
(citation omitted). We are constrained to interpret the
omission of a mitigation claim based on substance
abuse as a strategic decision given the evidence in the
record that state-habeas counsel contemplated the
possibility but decided against it. See Hopkins v.
Cockrell, 325 F.3d 579, 586 (5th Cir. 2003) (“As for the
The Texas Court of Criminal Appeals capped fees for habeas
counsel at $15,000 until 2000, when it was raised to $25,000. See
Shamburger v. Cockrell, 34 F. App’x 962, at *3 n.9 (5th Cir.
2002).

4

14a
alcohol and drug abuse, this Court has repeatedly
denied claims of ineffective assistance of counsel for
failure to present ‘double edged’ evidence where
counsel has made an informed decision not to present
it.”). We therefore “conclude that counsel’s decisions”
about the substance abuse “were objectively
reasonable based on the double-edged nature of the
evidence involved.” Kitchens v. Johnson, 190 F.3d
698, 703 (5th Cir. 1999).
With respect to Ayestas’s mental illness, neither
trial counsel nor state-habeas counsel could have
been expected to explore it given that there was no
evidence he was schizophrenic until 2000, two years
after his state-habeas application was filed.
State-habeas counsel had access to prison medical
records. They document that Ayestas was examined
on September 22, 2000, at which time he complained
of delusions that inmates could read his mind. The
handwritten notes also indicate that Ayesteas
“report[ed] no psy problems until 2 months ago.” In
other words, there is evidence that he did not begin
exhibiting any symptoms of schizophrenia until July
2000. That is consistent with the absence of any
evidence of Ayestas’s mental illness prior to that point
and with the multiple indicators of it afterwards.
In October 2000, Hart accompanied the Honduran
Consul General and the Honduran Ambassador to the
United States on a visit to Ayestas in prison. After
meeting with Ayestas, Ambassador Hugo Pino told
Hart he believed that Ayestas was delusional. In May
2003, in the wake of the Supreme Court’s decision in
Atkins v. Virginia, 536 U.S. 304 (2002), Hart arranged
for a psychologist to evaluate Ayestas’s intellectual
status. The psychologist concluded that there was no

15a
evidence of mental retardation but did express
concerns about his mental state and delusional
thinking.
While this evaluation concluded there was not a
viable Atkins claim, state-habeas counsel nonetheless
leveraged it to support the IATC claim premised on
the failure to present evidence Ayestas was only
guilty of lesser included felony murder. State-habeas
counsel used the psychologist’s finding that Ayestas
was not intellectually disabled to support his
argument that trial counsel should have called
Ayestas to testify. State-habeas counsel filed the
psychologist’s letter in the habeas proceedings but
redacted the discussion of Ayestas’s delusional
thinking. Delusional thinking, of course, was
arguably inconsistent with state-habeas counsel’s
attempt to portray Ayestas as a viable witness who
should have been called at trial. Ayestas was formally
diagnosed with schizophrenia in October 2003.
State-habeas counsel cannot have been ineffective
for failing to investigate mental illness because the
record establishes that there “was nothing to factually
put counsel on notice of any reasonable likelihood that
any such condition existed” at trial or when the statehabeas application was filed. West v. Johnson, 92 F.3d
1385, 1409 n.46 (5th Cir. 1996). This is not a Wiggins
fact-pattern. Counsel’s failure to present evidence of
mental illness “did not result from pure inattention,
and this is not a case like Porter, where counsel wholly
ignored multiple avenues of investigation,” nor is it
like Rompilla where there was “a readily available file
that the prosecution tipped-off to defense counsel.”
Charles v. Stephens, 736 F.3d 380, 391 (5th Cir. 2013).
Nothing counsel “uncovered prior to trial had led

16a
them to any family history of mental illness.” Smith
v. Davis, 927 F.3d 313, 337 (5th Cir. 2019).
At the same time, state-habeas counsel’s
awareness and active redaction of this “double-edged”
evidence after it emerged further constrains us to
interpret the omission of a claim premised on the
failure to present evidence of mental illness as a
strategic decision because “not to present evidence of
[his] volatile mental state, especially given counsel’s
decision to emphasize [his] non-violent history, was
clearly reasonable.” Nobles v. Johnson, 127 F.3d 409,
422 (5th Cir. 1997).
To repeat, when Hart filed the initial habeas
application none of these major mitigation decisions
existed. Even thereafter, Texas’s limitations on
subsequent applications would have prevented Hart
from adding additional mitigation claims premised on
mitigating evidence of substance abuse and mental
illness. TEX. CODE CRIM. PROC. ANN. art. 11.071 § 5.
The earliest cite to Wiggins by a Texas court
considering a habeas application apparently was in
2005, and the court rejected the claim as procedurally
barred:
The decisions of the Supreme Court of the
United States in Wiggins v. Smith, 123 S. Ct.
2527 (2003), and Rompilla v. Beard, 125 S. Ct.
2456 (2005), were subsequent to and
unavailable at the time of the initial application
in this cause. However, neither decision creates
a new legal basis for a review of the factual
allegations which were presented and reviewed
on applicant’s initial writ application.

17a
Ex parte Ramirez, No. WR-52,775-02, 2005 WL
2659443, at *1 (Tex. Crim. App. Oct. 18, 2005)
(unpublished).
Deciding whether to respond to a new trend and
pivot to a Wiggins-centric strategy or to stay the
course was surely its own strategic decision. Avoiding
claims likely to be barred as successive was more than
reasonable. “Experienced advocates since time
beyond memory have emphasized the importance of
winnowing out weaker arguments on appeal and
focusing on one central issue if possible, or at most on
a few key issues.” Jones v. Barnes, 463 U.S. 745, 75152 (1983).
While Hart failed to anticipate the arrival of
Wiggins claims, the record does demonstrate his own
innovative efforts. State-habeas counsel argued that
the failure to inform Ayestas of his right under the
Vienna Convention on Consular Relations (“VCCR”)
to consult with the Honduran Consul prevented him
from presenting mitigating evidence in violation of
the Eighth, Fourteenth, and Sixth Amendments.
Texas rightly describes these as “cutting edge” claims
that would not be rejected by the Supreme Court until
2008. See Medellin v. Texas, 552 U.S. 491 (2008).
A 1998 issue of the journal published by the
National Association of Criminal Defense Lawyers
makes the sophistication of this effort by state-habeas
counsel obvious:
The use of state post-conviction proceedings
for VCCR violations is even more in its infancy
than the use of federal habeas proceedings
since, until recently, the treaty violations were
not discovered until the cases had progressed
into federal court. Although unsuccessful

18a
because the Ohio court found its state habeas
proceedings limited to “constitutional” issues,
which excluded a treaty issue, State v. Loza
represents the first reported case where the
VCCR issue was raised in state habeas. Despite
the scarcity of reported cases, a state postconviction proceeding is the most promising
forum for litigating a violation of the VCCR
post-trial, since in that context it is much less
likely that procedural barriers will foreclose
efforts to raise the treaty violation.
In addition, state habeas proceedings
provide an opportunity to make a record on the
effect of the treaty violation. Lawyers who
represent defendants in state habeas
proceedings should develop evidence through
declarations, documents, and live testimony
that establishes what actions the consulate
would have taken and what prejudice the
defendant suffered as a result of the failure to
notify.
John Cary Sims & Linda E. Carter, Representing
Foreign Nationals: Emerging Importance of the
Vienna Convention on Consular Relations As A
Defense Tool, THE CHAMPION, Sept./Oct. 1998, at 28,
56.
Ayestas wants us to find his state-habeas counsel
was ineffective, or potentially ineffective, for not
undertaking an investigation that Ayestas himself
described as “unusual” because it would “touch[] two
central American countries and three States,” require
interviewing dozens of witnesses, “involve[]
extraordinarily complex investigatory tasks to piece
together the manifestations of [petitioner’s] mental

19a
illness in the years leading up to the commission of
this crime,” include attempts at “identifying
percipient witnesses, probing their memories for clues
whether [Ayestas] manifested signs of mental illness
and the nature of his ability to function,” and
“encompass complex cultural issues that must be
addressed and accounted for.”
This would go well beyond the prevailing
professional norms for post-conviction capital
representations in 1998, and state-habeas counsel
was not ineffective for not conducting such an
investigation given the limited time and resources
available. “Strickland does not require counsel to
investigate every conceivable line of mitigating
evidence.” Wiggins, 539 U.S. at 533.
It is not disputed that Ayestas had a history of
substance abuse nor that Ayestas was diagnosed with
a mental illness after conviction. Ayestas, though, has
not explained how state-habeas counsel was
ineffective, or even how his proposed investigation
might uncover evidence that differs not only in degree
but in kind from the facts known to state-habeas
counsel. Investigations are not reasonably necessary
“when the sought-after assistance would only
supplement prior evidence.” Smith v. Dretke, 422 F.3d
269, 288 (5th Cir. 2005).
Given the evidence that state-habeas counsel was
not deficient, joined with the unlikelihood of locating
new information suggesting otherwise, funding for
investigatory services cannot be reasonably
necessary.
AFFIRMED.

20a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
CARLOS AYESTAS,
Petitioner,
v.
WILLIAM STEPHENS,
Director, Texas
Department of Criminal
Justice-Correctional
Institutions Division,
Respondent.

§
§
§
§
§ CIVIL ACTION NO.
§ H-09-2999
§
§
§
§

MEMORANDUM OPINION AND ORDER
Petitioner Carlos Ayestas filed a petition for a writ
of habeas corpus under 28 U.S.C. § 254 challenging
his state court conviction and death sentence for
capital murder. On January 26, 2011, this court
granted the respondent’s motion for summary
judgment and entered judgment for the respondent.
On February 28, 2011, this court denied petitioner’s
motion to alter or amend the judgment. On February
22, 2012, the Fifth Circuit denied Ayestas’ request for
a certificate of appealability. Ayestas v. Thaler, No.
11-70004 (5th Cir., Feb. 22, 2012).
On June 6, 2013, the Supreme Court granted
certiorari and remanded the case to the Fifth Circuit
for reconsideration in light of the Supreme Court’s
decisions in Martinez v. Ryan, 132 S. Ct. 1309 (2012)
(holding that ineffective assistance of state habeas
counsel could, in certain circumstances, constitute
cause to excuse a procedural default of an ineffective

21a
assistance of trial counsel claim), and Trevino v.
Thaler, 133 S. Ct. 1911 (2013) (holding that Martinez
is applicable to the Texas capital postconviction
process). The Fifth Circuit subsequently remanded
the case to this court.
The parties have filed supplemental briefing on
the effect of Martinez on this case. Having carefully
considered Ayestas’s petition, the state court record,
the parties’ submissions, and the applicable law, the
court finds that Ayestas fails to establish cause and
prejudice to excuse the procedural default of his
claims of ineffective assistance of trial counsel.
Therefore, the court will deny Ayestas’s petition for a
writ of habeas corpus on these claims. The reasons
for these rulings are set out in detail below.
I. Background1
Ayestas was convicted of capital murder for
murdering Santiaga Paneque during the course of
committing or attempting to commit robbery or
burglary.
About two weeks before the murder
Ayestas and a friend went to look at a car offered for
sale by Anna McDougal, who lived across the street
from Paneque. McDougal went inside her house for
about 15 minutes while the men inspected the car.
When she came back outside, McDougal saw the two
men leaving Paneque’s house. When she asked what
they were doing, the men told McDougal that
Paneque called them over to look at some furniture
she was trying to sell.

This statement of facts is repeated from this court’s January
26, 2011, Memorandum Opinion and Order granting the
respondent’s motion for summary judgment.

1

22a
Paneque’s son, Elin, left the house at about 8:30
a.m. on September 5, 1995. He returned home for
lunch at 12:23 p.m.2 and rang the doorbell, but there
was no response. He put his key in the doorknob, but
noticed that the door was unlocked. Upon entering, he
saw that the room was ransacked and items were
missing. The rest of the house was in much the same
condition. Elin went to the house of a neighbor, Maria
Diaz, and called 911. Upon returning to his house, he
found his mother’s body on the floor of the master
bathroom. She had silver duct tape on her ankles.
Elin returned to Diaz’s house and asked her to go
make sure that his mother was dead. Diaz entered
the Paneque house and called Ms. Paneque’s name.
She found Ms. Paneque lying face down on the floor.
Her face was a dark color and she was not breathing.
Detective Mark Reynolds of the Harris County
Sheriff’s Department testified that the house was
ransacked but bore no signs of forced entry.
Paneque’s body was face down in a pool of blood and
vomit. Her wrists were bound with the cord from an
alarm clock and then wrapped in silver duct tape. She
also had duct tape over her eyes and around her neck.
Reynolds also testified that it was apparent that
Paneque was beaten. Her face was swollen and
covered with cuts and bruises. Reynolds showed
neighbors photographs of two suspects, and
McDougal identified them as the same two men who
were in Paneque’s house about two weeks before the
murder. One of the suspects was Petitioner and the
other was Frederico Zaldivar.
An autopsy conducted by Dr. Marilyn Murr, an
assistant medical examiner for Harris County,
2

He stated that he specifically noted the time.

23a
revealed that Paneque suffered multiple blows while
she was still alive, resulting in numerous bruises and
lacerations. She had fractured bones in her right
elbow and neck, and bruises on each side of her pelvic
area, just above the hips. An internal examination
revealed extensive hemorrhaging in the neck and
head.
She had another fracture, caused by a
“significant amount of force,” in the roof of the orbit
containing her right eye. Dr. Murr determined that
none of these injuries was substantial enough to kill
Paneque. The cause of death was asphyxiation due to
continual pressure applied to her neck for three to six
minutes. Dr. Murr testified that her initial report
indicated asphyxiation by ligature strangulation, but
she reexamined the evidence shortly before trial at
the request of the prosecutor. She then changed her
conclusion to “asphyxiation due to strangulation,”
which allowed for the possibility that a hand or hands
might have caused the asphyxia.
Police recovered fingerprints from the crime scene.
Two prints recovered from the tape around Paneque’s
ankles, and two recovered from the roll of tape,
matched Ayestas. On cross- examination the defense
brought out that the two prints on the tape around
Paneque’s ankles were only discovered shortly before
trial, approximately 20 months after the murder,
based on a reexamination undertaken at the
prosecutor’s request.
Henry Nuila testified that he met Ayestas in midSeptember 1995 at Ayestas’s sister’s house in Kenner,
Louisiana. On September 20 an intoxicated Ayestas
told Nuila that he was involved in the murder of a
woman in Houston. Ayestas asked Nuila for help in
killing the other two participants in the murder

24a
because “they had spoken too much.” Ayestas told
Nuila that, if he declined, Ayestas would kill him.
Ayestas brandished a gun. Nuila kept Ayestas
talking until Ayestas passed out. Nuila then called
the police. They arrested Ayestas, still in possession
of the gun. Based on this evidence the jury found
Ayestas guilty of capital murder for murdering
Paneque during the commission or attempted
commission of a burglary, robbery, or both.
During the penalty phase the State presented
evidence that Ayestas served time in prison in
California and Texas for possession and purchase for
sale of narcotics, burglary, and misdemeanor theft.
He was also the subject of a California warrant for
illegal transportation of aliens. Candelario Martinez
testified that three days after the murder Ayestas
approached him outside a motel where he was waiting
for a friend. After a brief conversation, Ayestas pulled
a gun on Martinez and ordered him into one of the
rooms. Martinez’s friend was also in the room.
Ayestas ordered Martinez onto the floor and
threatened to kill him. Ayestas and two others took
Martinez’s personal belongings and forced him into
the bathroom, where they again told him that they
would kill him. Martinez begged for his life as the
three discussed who would kill him. Ayestas finally
said that he would let Martinez live, but threatened
to kill his family if Martinez told the police. Ayestas
and his accomplices left in Martinez’s truck.
Based on this evidence, along with the evidence of
the brutality of Paneque’s murder, the jury found that
there is a likelihood that Ayestas would commit
future acts of criminal violence posing a continuing
threat to society, that Ayestas actually caused

25a
Paneque’s death or intended to kill her or anticipated
that a human life would be taken, and that the
mitigating evidence did not warrant a sentence of life
imprisonment. Accordingly, the trial court sentenced
Ayestas to death.
The TCCA affirmed Ayestas’s conviction and
sentence, Ayestas v. State, No. 72,928 (Tex. Crim.
App. Nov. 4, 1998), and denied his application for
habeas corpus relief, Ex parte Ayestas, No. WR69,674-01 (Tex. Crim. App. Sept. 10, 2008). Ayestas
filed a petition for a writ of habeas corpus in this court
on September 11, 2009. As discussed above, this court
denied the petition and the Fifth Circuit denied a
certificate of appealability. This case is now back
before this court of remand for reconsideration of
several procedurally defaulted claims in light of the
Supreme Court’s decision in Martinez.
II. The Applicable Legal Standards
In Martinez the Supreme Court carved out a
narrow equitable exception to the rule that a federal
habeas court cannot consider a procedurally defaulted
claim of ineffective assistance of counsel.
[W]hen a State requires a prisoner to raise an
ineffective-assistance-of-trial-counsel claim in
a collateral proceeding, a prisoner may
establish cause for a default of an ineffectiveassistance claim . . . where appointed counsel in
the initial-review collateral proceeding . . . was
ineffective under the standards of Strickland v.
Washington, 466 U.S. 668 . . . (1984). To
overcome the default, a prisoner must also
demonstrate that the underlying ineffectiveassistance-of-trial-counsel
claim
is
a
substantial one, which is to say that the

26a
prisoner must demonstrate that the claim has
some merit.
Martinez, 132 S. Ct. at 1318.
To prevail on a claim for ineffective assistance of
counsel, Petitioner
must show that . . . counsel made errors so
serious that counsel was not functioning as the
“counsel” guaranteed the [petitioner] by the
Sixth Amendment. Second, the [petitioner]
must show that the deficient performance
prejudiced the defense. This requires showing
that counsel’s errors were so serious as to
deprive the [petitioner] of a fair trial, a trial
whose result is reliable.
Strickland v. Washington, 466 U.S. 668, 687 (1984).
In order to prevail on the first prong of the Strickland
test, Petitioner must demonstrate that counsel’s
representation fell below an objective standard of
reasonableness. Id. at 687-88. Reasonableness is
measured against prevailing professional norms, and
must be viewed under the totality of the
circumstances. Id. at 688. Review of counsel’s
performance is deferential. Id. at 689.
In the context of a capital sentencing proceeding,
“the question is whether there is a reasonable
probability that, absent the errors, the sentencer . . .
would have concluded that the balance of aggravating
and mitigating circumstances did not warrant death.”
Strickland, 465 U.S. at 695. “A reasonable probability
is a probability sufficient to undermine confidence in
the outcome.” Id. at 694.
III. Analysis

27a
A.

Ineffective Assistance of Counsel

Ayestas contends that his counsel rendered
ineffective assistance during the penalty phase by
failing to investigate and present mitigating evidence
of Ayestas’s history of mental illness and substance
abuse. He argues that trial counsel was ineffective
for failing to investigate and develop this evidence,
and that habeas counsel was ineffective for failing to
investigate the evidence and argue that trial counsel
rendered ineffective assistance.
As discussed in this court’s original Memorandum
Opinion and Order denying Ayestas’s petition (Docket
Entry No. 19), the state habeas court found that
Ayestas did not agree to let counsel contact his family
until after jury selection was complete. The court also
found that counsel made every effort to contact the
family after Ayestas permitted her to do so. The court
further found that the defense investigator sent a
letter to the family in Honduras on May 29, 1997, six
weeks before the penalty phase began. Counsel sent
a second letter on June 10, 1997, stating that Ayestas
finally agreed to let counsel contact his family.
Counsel sent a third letter on July 2, 1997, and faxed
a letter to the United States Embassy in Honduras to
expedite the family’s travel to the United States.
Counsel informed the embassy of the need for the
family’s presence at trial, arranged a July 3, 1997,
meeting for the family at the embassy, and included a
copy of the June 10, 1997, letter. The court also found
that counsel communicated with the Ayestas family
by phone beginning on June 3, 1997. She spoke with
Ayestas’s mother, explained the situation, and
requested the family’s presence at trial. Ayestas’s
mother said she would call back. Counsel heard from

28a
the family on June 25, when Ayestas’s sister, Somara
Zalaya, informed counsel that the family would have
difficulty leaving Honduras for the trial. Among the
reasons stated were their father’s illness and
economic reasons. Counsel called the family again on
June 26 and 27, and July 2. Ayestas’s mother
appeared unconcerned and gave evasive responses.
Counsel’s assistants also noted the mother’s apparent
lack of concern. The state habeas court further found
that counsel informed the Honduran consulate of
Ayestas’s arrest, indictment, and upcoming trial on
June 9, 1997.
Counsel has a duty to investigate possible
mitigating evidence. Wiggins v. Smith, 539 U.S. 510
(2003). The record establishes, however, that counsel
did attempt to investigate and develop evidence
concerning Ayestas’s background.
Ayestas instructed counsel not to call his family.
Neither the Supreme Court nor the Fifth Circuit has
ever held that a lawyer provides ineffective assistance
by complying with the client’s clear and unambiguous
instructions to not present evidence. In fact, the Fifth
Circuit has held on several occasions that a defendant
cannot instruct his counsel not to present evidence at
trial and then later claim that his lawyer performed
deficiently by following those instructions. In Autry
v. McKaskle, 727 F.2d 358 (5th Cir. 1984), the
defendant prevented his attorney from presenting
any mitigating evidence during the punishment
phase of his capital trial. The Fifth Circuit rejected
Autry’s claim that counsel was ineffective for heeding
his instructions: “If Autry knowingly made the
choices, [his lawyer] was ethically bound to follow

29a
Autry’s wishes.” Id. at 362;3 see also Nixon v. Epps,
405 F.3d 318, 325-26 (5th Cir. 2005) (finding that
counsel was not ineffective for failing to present
additional mitigating evidence over client’s objection:
“A defendant cannot block his counsel from
attempting one line of defense at trial, and then on
appeal assert that counsel was ineffective for failing
to introduce evidence supporting that defense.”);
Roberts v. Dretke, 356 F.3d 632, 638 (5th Cir. 2004)
(noting that defendant may not obstruct attorney’s
efforts, then claim ineffective assistance of counsel);
Dowthitt v. Johnson, 230 F.3d 733, 748 (5th Cir. 2000)
(finding that counsel was not ineffective for failing to
call family members during punishment phase where
defendant stated that he did not want family
members to testify).4
Ayestas now contends that a properly conducted
investigation would have uncovered evidence of
mental illness and substance abuse. Respondent
points out, however, that Ayestas has not presented
any medical records supporting his claim that he
suffered from mental illness before his trial. While he
submits some medical records from TDCJ, these
records were created after Ayestas’s conviction.
Therefore, Ayestas fails to demonstrate that counsel
had any reason to believe that Ayestas suffered from
The Autry court also rejected the defendant’s claim that counsel
was required to request a competency hearing before agreeing to
comply with the client’s decisions. Id.
4 Cf. Schriro v. Landrigan, 550 U.S. 465, 475-77 (2007) (stating
that, if defendant instructed counsel not to present mitigating
evidence, “counsel’s failure to investigate further could not have
been prejudicial under Strickland”); Amos v. Scott, 61 F.3d 333,
348-49 (5th Cir. 1995) (denying ineffective assistance claim for
want of prejudice where defendant “strongly opposed”
presenting any witnesses during punishment phase of trial).
3

30a
mental illness, or was deficient for failing to conduct
an investigation into Ayestas’s alleged mental illness.
The record also shows that state habeas counsel
retained two investigators. Petitioner’s Brief on
Remand (Docket Entry No. 40) at Exhibits A and B.
In addition to speaking with Ayestas’s family, counsel
obtained Ayestas’s birth certificate and school
records, and was aware of his criminal history and
history of substance abuse. Id. at 26, Exhibit V.
Habeas counsel also had Ayestas evaluated by a
psychologist. Habeas counsel raised 16 claims for
relief, including 10 claims of ineffective assistance of
trial counsel. SH at 2-195. While it may be possible
that habeas counsel could have raised an ineffectiveassistance-of-trial-counsel claim regarding trial
counsel’s failure to investigate Ayestas’s history of
substance abuse, it cannot be said that the failure to
do so constituted deficient performance. As the
Supreme Court has noted in addressing an
ineffective-assistance-of-appellate-counsel
claim,
counsel are not required to raise every possible nonfrivolous claim. “Experienced advocates since time
beyond memory have emphasized the importance of
winnowing out weaker arguments on appeal and
focusing on one central issue if possible, or at most on
a few key issues.” Jones v. Barnes, 463 U.S. 745, 75152 (1983). Moreover, in light of the extremely brutal
nature of Ayestas’s crime and Ayestas’s history of
criminal violence, it is highly unlikely that evidence
of substance abuse would have changed the outcome
of the sentencing phase of trial or of the state habeas
corpus proceeding.
Therefore, Ayestas fails to
demonstrate ineffective assistance of state habeas
counsel and cannot show cause for his procedural

31a
default of his claims of ineffective assistance of trial
counsel.
B.

Investigative Funding

Ayestas contends that Martinez entitles him to
time and funding to investigate and further develop
his ineffective assistance claims, and he filed a motion
for funding to hire an investigator to develop
additional evidence in support of his ineffective
assistance claim. Martinez did not create any new
claims for relief or new rights. The decision, by its
own terms, serves only to create a limited equitable
exception to the longstanding procedural default rule
articulated in Coleman v. Thompson, 501 U.S. 722
(1991). Thus, to qualify for investigative funding a
petitioner must satisfy the conditions of the funding
statute, 18 U.S.C. § 3599(f).
That statute provides that “[u]pon a finding that
investigative, expert, or other services are reasonably
necessary for the representation of the defendant,
whether in connection with issues relating to guilt or
the sentence, the court may authorize the defendant’s
attorneys to obtain such services on behalf of the
defendant[.]” 18 U.S.C.A. § 3599(f). Neither the
Supreme Court nor the Fifth Circuit has defined the
phrase “reasonably necessary” beyond the statute’s
plain language. The Fifth Circuit, however, requires
a petitioner to show “that he ha[s] a substantial need”
for investigative or expert assistance. Clark v.
Johnson, 202 F.3d 760, 768 (5th Cir.), cert. denied,
531 U.S. 831 (2000); see also Fuller v. Johnson, 114
F.3d 491, 502 (5th Cir.), cert. denied, 522 U.S. 963
(1997) (“In light of the statutory language, we first
note that Fuller did not show a substantial need for
expert assistance.”). The Fifth Circuit upholds the

32a
denial of funding “when a petitioner has (a) failed to
supplement his funding request with a viable
constitutional claim that is not procedurally barred,
or (b) when the sought-after assistance would only
support a meritless claim, or (c) when the sought after
assistance would only supplement prior evidence.”
Smith v. Dretke, 422 F.3d 269, 288 (5th Cir. 2005); see
also Woodward v. Epps, 580 F.3d 318, 334 (5th Cir.
2009), cert. denied, 130 S. Ct. 2093 (2010).
As discussed above, Ayestas fails to demonstrate
that trial counsel was deficient, that there is a
reasonable probability that his claimed evidence of
substance abuse would have changed the outcome of
either his trial or his state habeas corpus proceeding,
or that his state habeas counsel was ineffective.
Therefore, he fails to demonstrate that the funding he
requests is reasonably necessary.
Accordingly,
Ayestas’s motion (Docket Entry No. 49) will be denied.
IV. Certificate of Appealability
Although Ayestas has not requested a certificate
of appealability (“COA”), the court may nevertheless
determine whether he is entitled to this relief in light
of the court’s rulings. See Alexander v. Johnson, 211
F.3d 895, 898 (5th Cir. 2000) (“It is perfectly lawful
for district court’s [sic) to deny fa) COA sua sponte.
The statute does not require that a petitioner move
for a COA; it merely states that an appeal may not be
taken without a certificate of appealability having
been issued.”). A petitioner may obtain a COA either
from the district court or an appellate court, but an
appellate court will not consider a petitioner’s request
for a COA until the district court has denied such a
request. See Whitehead v. Johnson, 157 F.3d 384, 388
(5th Cir. 1988); see also Hill v. Johnson, 114 F.3d 78,

33a
82 (5th Cir. 1997) (“the district court should continue
to review COA requests before the court of appeals
does”).
A COA may issue only if the petitioner has made
a “substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2); see also
United States v. Kimler, 150 F.3d 429, 431 (5th Cir.
1998). A petitioner “makes a substantial showing
when he demonstrates that his application involves
issues that are debatable among jurists of reason,
that another court could resolve the issues differently,
or that the issues are suitable enough to deserve
encouragement to proceed further.” Hernandez v.
Johnson, 213 F.3d 243, 248 (5th Cir.), cert. denied,
531 U.S. 966 (2000). The Supreme Court has stated
that
When the district court denies a habeas petition
on procedural grounds without reaching the
prisoner’s underlying constitutional claim, a
COA should issue when the prisoner shows, at
least, that jurists of reason would find it
debatable whether the petition states a valid
claim of the denial of a constitutional right and
that jurists of reason would find it debatable
whether the district court was correct in its
procedural ruling.
Slack v. McDaniel, 529 U.S. 473, 484 (2000).
The court has carefully considered Ayestas’s
argument and concludes that his ineffective
assistance of trial claims are foreclosed by clear,
binding precedent. The court concludes that under
such precedents Ayestas has failed to make a
“substantial showing of the denial of a constitutional
right.” 28 U.S.C. 2253(c)(2). The court therefore

34a
concludes that Ayestas is not entitled to a certificate
of appealability on his claims.
V. Conclusion and Order
For the foregoing reasons, it is ORDERED as
follows:
1. Ayestas’s ineffective assistance of counsel claims
are denied as procedurally defaulted;
2. No Certificate of Appealability shall issue in this
case;
3. Petitioner’s Motion for Funding for Ancillary
Services in Accordance with 18 U.S.C. § 3599(f)
(Docket Entry No. 49) is DENIED; and
4. Petitioner’s Motion for Leave to File Ex Parte and
Under Seal a Motion for Funding for Ancillary
Services in Accordance with 18 U.S.C. § 3599(f)
(Docket Entry No. 48) is MOOT.
SIGNED at Houston, Texas, on this 18th day of
November, 2014.

/s/ Sim Lake
SIM LAKE
UNITED STATES DISTRICT JUDGE

35a
APPENDIX C
IN THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT
No. 15-70015

FILED
March 22, 2016
Lyle W. Cayce
Clerk

CARLOS MANUEL AYESTAS, also known as
Dennis Zelaya Corea,
Petitioner-Appellant
v.
WILLIAM STEPHENS, DIRECTOR, TEXAS
DEPARTMENT OF CRIMINAL JUSTICE,
CORRECTIONAL INSTITUTIONS DIVISION,
Respondent-Appellee
Appeal from the United States District Court
for the Southern District of Texas
Before DAVIS, SMITH, and SOUTHWICK, Circuit
Judges.
PER CURIAM:
The district court denied Carlos Manuel Ayestas
relief from his capital sentence under 28 U.S.C. §
2254. It then denied him investigative assistance
under 18 U.S.C. § 3599(f) to develop evidence that
might prove his previous attorneys were ineffective.
Ayestas appeals these decisions. We AFFIRM.
Separately, after these district court rulings,
Ayestas discovered new evidence suggesting his
prosecution was based improperly on his national

36a
origin. He moved to amend his Section 2254
application to raise this new claim. The district court
denied the motion. The court also denied a certificate
of appealability, and so do we.
FACTUAL AND PROCEDURAL BACKGROUND
Carlos Manuel Ayestas1 was sentenced to death
for the murder of Santiaga Paneque, who was killed
during a robbery in her home in Houston, Texas, in
August 1995. The Texas Court of Criminal Appeals
affirmed his conviction and sentence on November 4,
1998.
In December 1998, Ayestas sought state habeas
relief. His two court- appointed lawyers raised several
claims, including an ineffective assistance of trial
counsel (“IATC”) claim. Ayestas, through his state
habeas lawyers, argued that his trial counsel was
ineffective because he failed to secure the attendance
of Ayestas’s family members from Honduras for
sentencing mitigation. According to Ayestas, they
“could have testified to [his] good character traits,
positive upbringing, good scholastic record, and lack
of juvenile or criminal record while growing up in
Honduras.” Ayestas did not claim that his trial
counsel failed to conduct a reasonable investigation
into all potentially mitigating evidence.
The State of Texas presented an affidavit from
Ayestas’s trial counsel in which he asserted that
Ayestas ordered him not to contact Ayestas’s family.
According to trial counsel, Ayestas later relented and
allowed him to contact Ayestas’s family, either shortly
1 Carlos Manuel Ayestas’s true name is Dennis Zelaya Corea.
We refer to the defendant as. Ayestas because that is the name
under which he was charged and convicted.

37a
before or just after jury selection. The family was
unable to attend sentencing. Counsel said Ayestas’s
mother seemed “unconcerned” about her son’s trial.
The Texas state district court denied relief, holding
that Ayestas’s trial counsel made reasonable and
diligent efforts to secure the attendance of Ayestas’s
family and was not ineffective. The Texas Court of
Criminal Appeals affirmed in 2008.
In 2009, new counsel for Ayestas filed in federal
district court an application under 28 U.S.C. § 2254.
For the first time, Ayestas asserted the claim that his
trial counsel was ineffective by failing to make a
reasonable investigation of all potentially mitigating
evidence. Ayestas’s federal habeas counsel argued
that had trial counsel conducted a thorough
investigation, he would have uncovered other
mitigating evidence. Examples were Ayestas’s lack of
criminal history in Honduras, that one of his codefendants in this case was a “bad influence” on him,
that Ayestas suffered from schizophrenia, and that he
was addicted to drugs and alcohol.
The district court determined that because this
claim was not raised in the Texas state habeas
proceeding, Ayestas had procedurally defaulted the
claim. The court refused to excuse the default because
Ayestas had failed to show “cause,” as no factor
external to Ayestas’s defense impeded his state
habeas attorneys’ ability to present the broader IATC
claim. In 2012, we denied Ayestas’s request for a
certificate of appealability (“COA”). Ayestas v. Thaler,
462 F. App’x 474 (5th Cir. 2012).
Shortly thereafter, the Supreme Court decided
Martinez v. Ryan, 132 S. Ct. 1309 (2012), which held
that the ineffectiveness of state habeas counsel in

38a
failing to claim IATC may provide cause to excuse a
default; if so, prejudice would need to be shown. After
Martinez, Ayestas filed a motion for rehearing, asking
us to vacate our prior judgment. We denied that
motion, holding that Martinez did not apply in Texas
because its procedures were distinguishable. The
Supreme Court then extended Martinez to Texas in
Trevino v. Thaler, 133 S. Ct. 1911 (2013). The Court
vacated and remanded the present case to us for
further consideration in light of Trevino. Ayestas v.
Thaler, 133 S. Ct. 2764 (2013). We then remanded to
the district court “to reconsider Ayestas’s
procedurally defaulted ineffective assistance of
counsel claims in light of Trevino.” Ayestas v.
Stephens, 553 F. App’x 422 (5th Cir. 2014).
On remand, Ayestas filed a motion for
investigative assistance under 18 U.S.C. § 3599(f),
requesting a mitigation specialist in order to develop
his broader IATC claim. On November 18, 2014, the
district court entered a memorandum opinion and
judgment, denying Ayestas habeas relief, denying a
COA, and denying investigative assistance. The
district court determined that neither Ayestas’s trial
counsel nor his state habeas counsel were ineffective,
and thus the broader IATC claim was still
procedurally defaulted. It then determined that
because Ayestas’s underlying IATC claim was still
without merit, a mitigation specialist was not
“reasonably necessary.” On December 16, 2014,
Ayestas filed a Federal Rule of Civil Procedure Rule
59(e) Motion to Alter or Amend the Judgment, reurging many of his prior arguments.
Issues that arose after the district court’s
November 18 decision are also before us. On

39a
December 22, 2014, Ayestas’s counsel, while
reviewing portions of the prosecution’s file at the
Office of the District Attorney in Houston, discovered
a Capital Murder Summary memorandum, prepared
by the prosecution, stating that Ayestas’s lack of
citizenship was an “aggravating circumstance[].”
Ayestas argues this indicates that the prosecution, at
least in part, sought capital punishment on the
improper basis of national origin.
On January 9, 2015, Ayestas filed a “Motion for
Leave to Amend Original Petition for Writ of Habeas
Corpus” where he, through Rule 15(e), sought to
amend his Section 2254 application to add claims
based on this newly discovered memorandum. He
argued the state conviction and sentence violated the
Equal Protection Clause and the Cruel and Unusual
Punishment Clause of the Constitution. On January
14, 2015, Ayestas supplemented his December 16
Rule 59(e) motion to expand the basis upon which the
district court should grant the motion.
Realizing the district court would not be able to
review his new claims even if it were to grant his Rule
59(e) motion because they were not exhausted in state
court, Ayestas, on the same day, filed a motion to
stay the federal proceedings until the new claims
could be exhausted. Ayestas argued that he had good
cause for not presenting these claims previously in
state court. On February 17, 2015, the district court
denied Ayestas’s motions for leave to amend and for
a stay. The district court then denied the Rule 59(e)
motion on April 1, 2015, and again denied a COA.
DISCUSSION
The procedural posture requires Ayestas to appeal
multiple aspects of the district court’s decisions in

40a
order for us to reach the merits of his habeas appeal
and his new claims.
First, because the district court rendered final
judgment by denying Ayestas habeas relief in the
November 18 decision and then entered the April 1
order denying Ayestas’s Rule 59(e) motion, the final
judgment must be vacated before Ayestas may amend
his petition and add new claims. See Dussouy v. Gulf
Coast Inv. Corp., 660 F.2d 594, 597 n.1 (5th Cir. 1981).
Ayestas asks us to vacate the judgment so he may
amend his petition to include these new claims.
Second, Ayestas appeals the part of the February 17,
2015 order denying his motion for leave to amend
under Rule 15. Finally, because Ayestas’s new claims
are unexhausted in state court, he appeals the part of
the February 17 order denying his motion for a stay
and abeyance.
Generally, under the Anti-Terrorism and Effective
Death Penalty Act (“AEDPA”), we do not have
jurisdiction to review a district court’s “final order in
a habeas corpus proceeding in which the detention
complained of arises out of process issued by a State
court” denying an inmate habeas relief unless the
inmate first obtains a COA. 28 U.S.C. § 2253(c)(1)(A).
While both the district court judge and the relevant
court of appeals may issue a COA, the inmate must
first seek a COA from the district court. Gonzalez v.
Thaler, 132 S. Ct. 641, 649 n.5 (2012). The district
court denied Ayestas a COA in both its November 18,
2014 and April 1, 2015 decisions. For Ayestas to
appeal these two decisions, therefore, we must first
grant him a COA. We grant a COA only upon “a
substantial showing of the denial of a constitutional
right.” 28 U.S.C. § 2253(c)(2). When the district court

41a
denies an applicant’s constitutional claims on
procedural grounds, as the case here, a COA will issue
only if the applicant shows that reasonable jurists
would debate whether the district court was correct in
its procedural ruling and whether the petition states
a valid claim on the merits. Slack v. McDaniel, 529
U.S. 473, 484 (2000).
Somewhat separately, however, Ayestas appeals
an aspect of the district court’s November 18 decision
denying him investigative assistance. We do have
jurisdiction to review this without first requiring a
COA. This is because a COA is only required of
appeals of “final orders that dispose of the merits of a
habeas corpus proceeding.” Harbison v. Bell, 556 U.S.
180, 183 (2009) (emphasis added). “An order that
merely denies a motion to enlarge the authority of
appointed counsel (or that denies a motion for
appointment of counsel [or assistance]) is not such an
order and is therefore not subject to the COA
requirement.” Id. As such, as to the district court’s
decision to deny Ayestas investigative assistance, we
review for abuse of discretion. See Hill v. Johnson, 210
F.3d 481, 487 (5th Cir. 2000). “A trial court abuses its
discretion when its ruling is based on an erroneous
view of the law or a clearly erroneous assessment of
the evidence.” United States v. Ebron, 683 F.3d 105,
153 (5th Cir. 2012).
We will discuss first the issues arising from the
denial of Ayestas’s request for investigative
assistance. We will then address the merits of
Ayestas’s IATC claim. Finally, we address Ayestas’s
claim that new evidence required some form of relief.

42a

I. Investigative Assistance
As mentioned above, an appeal of a denial of
investigate assistance does not require a COA and is
reviewed for abuse of discretion. For this particular
claim, Ayestas argues the district court should not
have examined the merits of his IATC claims until it
provided him with a mitigation specialist and allowed
the results of that investigation to be presented.
Ayestas argues that under Martinez and Trevino, in
order to prove that his prior lawyers were ineffective,
he must be allowed to develop and discover what his
prior lawyers should have developed or discovered. As
Ayestas explains:
By prematurely deciding that [Ayestas’s]
IATC claims were facially meritless, without
affording resources for factual development
under 18 U.S.C. § 3599(f). . . . the district court
summarily dismissed [Ayestas’s] petition
based solely on its review of the allegations
contained in the original petition filed in
2009.
Ayestas argues that the merits of the IATC claim
cannot rest on the record from the state habeas
proceeding, which allegedly is infected with the work
of ineffective counsel. Instead, he must be allowed to
develop new evidence to support his factual
allegations. The argument, at least in part, is
foreclosed by circuit precedent. A district court is
within its discretion to deny an application for
funding “when a petitioner has [] failed to supplement
his funding request with a viable constitutional claim
that is not procedurally barred.” Brown v. Stephens,
762 F.3d 454, 459 (5th Cir. 2014), cert. denied, 135 S.
Ct. 1733 (2015). Though Brown dealt with a

43a
defendant bringing an initial federal habeas claim
and Ayestas’s current appeal is before us on remand
from the Supreme Court, the difference in procedural
postures is not significant. The district court properly
considered the procedural default prior to approving
Section 3599(f) funding for this federal habeas claim.
In two recent post-Martinez and Trevino opinions,
this court held that Section 3599(f) funding is
available if the district court finds that there is a
“substantial need” for such services to pursue a claim
that is not procedurally barred. Allen v. Stephens, 805
F.3d 617, 626, 638−39 (5th Cir. 2015); Wade v.
Stephens, 777 F.3d 250, 266 (5th Cir.), cert. denied,
136 S. Ct. 86 (2015). Ayestas argues the district court,
and by extension these two precedents, required an
impossibility: proving deficient performance in order
to be given resources to discover the evidence of
deficient performance. He mischaracterizes the
requirement. There must be a viable constitutional
claim, not a meritless one, and not simply a search for
evidence that is supplemental to evidence already
presented. Brown, 762 F.3d at 459. The basic point is
that a prisoner cannot get funding to search for
whatever can be found to support an as-yet
unidentified basis for holding that his earlier counsel
was constitutionally ineffective. Instead, there must
be a substantiated argument, not speculation, about
what the prior counsel did or omitted doing. Ayestas
indeed offered such an argument. We interpret the
district court’s ruling as being that any evidence of
ineffectiveness, even if found, would not support
relief.
The district court did not abuse its discretion when
it declined to authorize a mitigation specialist for

44a
Ayestas before it determined the viability of Ayestas’s
claim. We still must decide if the district court
properly denied Ayestas investigative assistance on
the basis that a mitigation specialist was not
“reasonably necessary” because his claim was
meritless. For this, we must briefly analyze the
underlying merits of Ayestas’s claim. See id. We turn
now to that question.

II. Overcoming Procedural Default
In order for the Martinez/Trevino exception to
excuse a prior procedural default, Ayestas must
present a viable claim that his trial counsel was
ineffective and his state habeas attorneys were
ineffective in failing to raise trial counsel’s errors. See
Martinez, 132 S. Ct. at 1321.
Ineffective
assistance
requires
deficient
performance
and
prejudice.
Strickland
v.
Washington, 466 U.S. 668, 687 (1984). An attorney’s
performance is deficient if it falls “below an objective
standard of reasonableness” based on “prevailing
professional norms.” Id. at 687−88. “[C]ounsel has a
duty to make reasonable investigations,” id. at 691,
including an “obligation to conduct a thorough
investigation of the defendant’s background,” Porter
v. McCollum, 558 U.S. 30, 39 (2009). Nonetheless,
there is “a strong presumption that counsel’s conduct
falls within the wide range of reasonable professional
assistance.” Strickland, 466 U.S. at 689.
The specific deficiencies Ayestas raises concern his
trial counsel’s alleged failure to investigate and
present evidence about his drug use and possible
mental illness. Such evidence allegedly would have
been discoverable if counsel had contacted family and
friends in Ayestas’s home country of Honduras.

45a
Ayestas also points out that his trial counsel, for 15
months, stopped pursuing mitigation evidence, only
resuming his activities 10 days prior to jury selection.
He also claims his counsel in the initial state habeas
proceedings should have made an issue of this alleged
ineffectiveness by trial counsel.
The district court rejected the claim because
Ayestas barred his attorneys from contacting his
family, finally relenting around the time of jury
selection for his sentencing. Trial counsel then
pursued evidence from the family in Honduras and
California by sending letters to them and finally
seeking the assistance of the United States embassy
in Honduras. A few days after Ayestas allowed
contact, trial counsel also telephoned Ayestas’s
mother in Honduras. As we have already discussed
and as detailed in the district court’s opinion, the
mother showed a lack of zeal in assisting the defense.
The district court relied on caselaw in which we held
that an attorney is not ineffective for failing to present
evidence in mitigation at sentencing if the defendant
orders counsel not to do so. See Autry v. McKaskle, 727
F.2d 358, 362–63 (5th Cir. 1984). We conclude that an
attorney’s compliance with a capital-case client’s
demand that contact not be made with his family is
similarly permitted.
On appeal now, counsel argues that such
interference by the defendant heightens the need for
counsel to search for other sources of information
about the defendant’s background. We do not agree
with such a standard. Regardless of the specific
problems that arise in the investigation for mitigation
evidence, the issue is whether counsel made
“reasonable investigations or . . . a reasonable

46a
decision that makes particular investigations
unnecessary.” Wiggins v. Smith, 539 U.S. 510, 521
(2003) (quoting Strickland, 466 U.S. at 691). The
district court pointed out trial counsel’s efforts and
discoveries despite the limitations under which
counsel worked. Counsel spoke by phone with
Ayestas’s family. He acquired Ayestas’s school
records and was aware of the substance abuse.
Ayestas was also examined by a psychologist.
The district court’s analysis of the argument about
Ayestas’s mental illness relied in part on the absence
of any evidence that medical records existed at the
time of trial that would have shown Ayestas was
suffering from any mental illness. Therefore, defense
counsel were not on notice of the need to pursue this
line of inquiry at his initial trial. This analysis injects
the question of whether current counsel has shown a
need for funding to pursue what evidence might have
existed to alert trial counsel of Ayestas’s mental state
in 1997. The briefing here discusses at great length
the progression of schizophrenia, the mental disease
with which Ayestas has now been diagnosed. The
diagnosis was not made until 2000 while he was in
prison after his conviction for this crime. Perhaps,
counsel posits, a thorough investigation now would
uncover evidence that early-stage symptoms of this
disease were exhibiting themselves in 1997, making
trial counsel’s unawareness of those symptoms
constitutionally ineffective representation.
We find no error in the rejection of the claims
about mental illness. Trial counsel in 1997 had
Ayestas examined by a psychologist. The briefing does
not suggest that the examination itself revealed a
basis for further investigation. Whatever medical

47a
understandings could be applied now to evidence
about Ayestas’s mental condition in 1997, with the
benefit of hindsight and perhaps additional
knowledge about this disease, does not undermine
that trial counsel was not constitutionally ineffective
in pursuing what appeared at that time to be
unproductive lines of inquiry.
Moreover, even if trial counsel had pursued such
lines of inquiry, the results would not have been
fruitful. A Strickland ineffective representation
requires deficient performance and prejudice.
Prejudice means “a reasonable probability . . . the
result of the proceeding would have been different.”
Hinton v. Alabama, 134 S. Ct. 1081, 1089 (2014). A
reasonable probability is a “substantial, not just
conceivable, likelihood of a different result.” Cullen v.
Pinholster, 563 U.S. 170, 189 (2011) (quotation marks
omitted). The district court held that regardless of
any deficiencies in the investigation about substance
abuse, no prejudice resulted because, in light of the
brutality of the crime, it was “highly unlikely that
evidence of substance abuse would have changed the
outcome of the sentencing phase of trial or of the state
habeas corpus proceeding.” That finding is valid.
Further, even if Ayestas had entered the early stages
of an as-yet undiagnosed mental illness, we find it at
best to be conceivable, but not substantially likely,
that the outcome may have been different.
As to the district court’s refusal to fund an
investigation into Ayestas’s mental condition as it
existed almost 20 years ago, we find no abuse of
discretion. The arguments about what might be
discovered still have to be examined from the
perspective of what trial counsel reasonably should

48a
have known and done those many years ago. See
Strickland, 466 U.S. at 689. The district court did not
err in failing to allow this inquiry to proceed.
Because we agree with the district court that there
is no basis to hold trial counsel was constitutionally
ineffective for failing to investigate further the
possible questions of mental illness and substance
abuse, Ayestas’s state habeas counsel were not
ineffective for failing to pursue that line of
investigation. Raising every conceivable claim is
neither required nor beneficial. Ayestas’s state
habeas counsel raised 16 claims for relief, including
10 ineffective assistance of counsel arguments. There
was no shortage of claims, though mere numbers of
claims do not dispel the possibility of constitutional
ineffectiveness. Because we have already held that
trial counsel was not ineffective in failing to raise
these particular claims, at most, Ayestas’s arguments
deal with the strategic choices the state habeas
lawyers had to make. Such choices are not subject to
second-guessing by a court. Strickland, 466 U.S. at
689.
In summary, the district court correctly rejected
the assertion that Ayestas’s trial and state habeas
attorneys were ineffective. As a result, because
Ayestas cannot show that his claim is viable and that
assistance was reasonably necessary, the district
court properly determined that Ayestas was not
entitled to a mitigation specialist under Section
3599(f).
To the extent that Ayestas also appeals the district
court’s November 18, 2014 memorandum opinion
denying habeas relief on the merits, and the April 1,
2015 order denying his Rule 59(e) motion, these

49a
appeals are foreclosed. For these appeals, Ayestas
requires a COA. As mentioned above, one
requirement for the granting of a COA is a valid claim
on the merits. For the same reasons that we have
explained above for why Ayestas is not entitled to a
mitigation specialist, we also deny Ayestas a COA.

III. Amendment to Section 2254 Application
We now turn to the issues that arise from the
district court’s denial of Ayestas’s motion to
supplement his claims with arguments about the
Capital Murder Summary memorandum. That is the
document that suggested that Ayestas’s non-citizen
status was one of two factors that led to the
recommendation that the death penalty should be
sought.
Ayestas’s appellate
brief
supporting
his
application for a COA acknowledged that in district
court, he had “sought to amend with a claim wholly
unrelated to the IATC claim litigated under Trevino,”
which was the matter we had remanded to the court.
Under what is called the “mandate rule,” a district
court on remand is limited to consideration of the
matters that were the subject of the order from the
appellate court. Henderson v. Stadler, 407 F.3d 351,
354 (5th Cir. 2005). We have used this articulation of
the requirement:
[T]he mandate rule compels compliance on
remand with the dictates of a superior court
and forecloses relitigation of issues expressly
or impliedly decided by the appellate court.
Id. (quoting United States v. Lee, 358 F.3d 315, 321
(5th Cir. 2004)). The district court held that adding
the unrelated claims to the subject of the remand

50a
would violate the mandate rule. Ayestas disagrees,
first arguing the district court misinterpreted our
remand order as limiting its discretion, and then
arguing the mandate rule does not preclude the
addition of a new claim. We disagree on both fronts.
As to his first argument, Ayestas claims that the
last sentence of our remand order shows that we
expressly declined to constrain the district court:
We REMAND to the district court to
reconsider Ayestas’s procedurally defaulted
ineffective assistance of counsel claims in
light of Trevino. We express no view on what
decisions the district court should make on
remand.
Ayestas v. Stephens, 553 F. App’x 422, 423 (5th Cir.
2014) (emphasis added). Ayestas reads too much into
this sentence. As the penultimate sentence clearly
reads, the remand was limited to the reconsideration
of the defaulted IATC claim. The last sentence simply
indicates that we express no view as to how the
district court should decide or approach this IATC
claim.
As to his second argument, Ayestas relies heavily
on a Supreme Court case as standing for the
proposition that “the circuit court may consider and
decide any matters left open by the mandate of this
court.” In re Sanford Fork & Tool Co., 160 U.S. 247,
256 (1895). But as explained above, our remand order
did not leave open any matter other than the
defaulted IATC claim. If anything, Sanford Fork
supports our decision in this case. The district court
did not err in its interpretation of our remand order
or its application of the mandate rule.

51a
Additionally, Ayestas’s new constitutional claims
are unexhausted in state court and therefore cannot
now be reviewed here on the merits. 28 U.S.C. §
2254(b)(1)(A). Realizing the need for exhaustion,
Ayestas filed a motion to stay and hold the
proceedings in abeyance in order to return to state
court to exhaust the new claims. “When a petitioner
brings an unexhausted claim in federal court, stay
and abeyance is appropriate when the district court
finds that there was good cause for the failure to
exhaust the claim; the claim is not plainly meritless;
and there is no indication that the failure was for
purposes of delay.” Williams v. Thaler, 602 F.3d 291,
309 (5th Cir. 2010). “[W]hen a petitioner is
procedurally barred from raising [his] claims in state
court, his unexhausted claims are plainly meritless.”
Id. (quotation marks omitted).
Hence, we turn to examining whether Ayestas
would be barred under Texas law from bringing his
new claims.
In Texas, subsequent petitions for writ of habeas
corpus in a death penalty case based upon newly
available evidence, are handled as follows:
(a) If a subsequent application for a writ of
habeas corpus is filed after filing an
initial application, a court may not
consider the merits of or grant relief
based on the subsequent application
unless
the
application
contains
sufficient specific facts establishing
that:
(1) the current claims and issues have
not been and could not have been
presented previously in a timely

52a
initial application or in a previously
considered application filed under
this article or Article 11.07 because
the factual or legal basis for the
claim was unavailable on the date
the applicant filed the previous
application . . . .
TEX. CRIM. PROC. CODE art. 11.071 § 5(a)(1). Section
5(e) further provides that “[f]or purposes of
Subsection (a)(1), a factual basis of a claim is
unavailable on or before a date described by
Subsection (a)(1) if the factual basis was not
ascertainable through the exercise of reasonable
diligence on or before that date.” Id. art. 11.071 § 5(e).
Thus, Ayestas must show he exercised reasonable
diligence in trying to obtain evidence such as the
memorandum. Ayestas’s briefing in this court and in
the district court never suggests he sought to examine
the prosecution’s file prior to the December 22 search
that uncovered the memorandum. A defense counsel’s
“duty to investigate” includes “efforts to secure
relevant information in the possession of the
prosecution [and] law enforcement authorities.” ABA
STANDARDS FOR CRIMINAL JUSTICE: DUTY TO
INVESTIGATE AND ENGAGE INVESTIGATORS 4-4.1(c)
(4th ed. 2015); Rompilla v. Beard, 545 U.S. 374, 385–
89 (2005) (explaining that counsel’s failure to look at
a “readily available” prosecution file was deficient
performance for the purposes of Strickland).
Moreover, Ayestas makes no claim “that [the
memorandum] was unavailable to [his] trial counsel
through a reasonably diligent examination of the case
file the prosecution had made available.” Amador v.

53a
Dretke, No. Civ.SA-02-CA- 230-XR, 2005 WL 827092,
at *18 (W.D. Tex. Apr. 11, 2005).
Ayestas offers two explanations for his failure to
investigate the prosecution’s file. First, he argues that
the state was under an affirmative duty to turn the
memorandum over to him. Second, he argues he
properly assumed a search of the folder would not
uncover information as material as this document.
The first explanation is based on Ayestas’s having
made two demands under Brady v. Maryland, 373
U.S. 83 (1963). Under Brady, the state must disclose
exculpatory evidence upon a proper demand by the
defendant. Id. at 87. While the state was under an
obligation to turn over such evidence in this case,
there is no Brady violation if counsel, “using
reasonable diligence, could have obtained the
information.” Williams v. Scott, 35 F.3d 159, 163 (5th
Cir. 1994). Though Ayestas is not asserting a Brady
claim, the fact that there would be no Brady violation
unless Ayestas were reasonably diligent in
discovering evidence suggests to us that any alleged
failings on the part of the state in not turning over the
memorandum do not mitigate Ayestas’s own
responsibility to undertake a reasonably diligent
investigation for the purposes of Section 5 of Article
11.071. Hence, even though Ayestas filed two Brady
demands, Ayestas was under an independent
obligation to use reasonable diligence in attempting
to discover exculpatory evidence, which, as explained
above, he failed to do.
Ayestas’s latter justification is that he “rightly
assume[d] that the District Attorney would redact its
file of all privileged work product, such as the capital
murder summary.” This justification is circular and

54a
without merit. Ayestas essentially argues that he
assumed no material information was contained in
the file, and that had he known such material
information was in the file, he would have
investigated the file. Of course, had Ayestas known
the memorandum was in the file he would have no
doubt searched it, but the point of reasonable
diligence is to ensure that such evidence is found
when it is unclear where such evidence may lie.
Ayestas’s assumption does not serve to excuse his
duty to secure information in the possession of the
prosecution. ABA STANDARDS FOR CRIMINAL JUSTICE:
DUTY TO INVESTIGATE AND ENGAGE INVESTIGATORS 44.1(c) (4th ed. 2015).
Additionally, as discussed above, even if not
procedurally defaulted, Ayestas’s claims are not likely
to succeed on the merits. The district court did not err
in concluding Ayestas’s trial counsel and his state
habeas attorneys were not ineffective. Hence, even if
Ayestas could prove he exercised reasonable diligence
in discovering the memorandum, he still cannot
exhaust his new claims in the Texas courts because
his claims are not meritorious.
Ayestas did not exercise reasonable diligence in
attempting to discover the memorandum earlier.
Therefore, he is unable to prove under Section 5 of
Article 11.071(a) of the Texas Code of Criminal
Procedure that he would be entitled to a subsequent
state habeas hearing to exhaust his new claims that
are based on the newly discovered memorandum.
Hence, Ayestas has not exhausted, and will not be
able to exhaust, these claims in state court. Because
we are unable to review unexhausted claims, the

55a
district court did not abuse its discretion in denying
Ayestas’s motion for a stay and abeyance.
The request for certificate of appealability is
DENIED. The judgment rejecting Ayestas’s Section
2254 application is AFFIRMED.

56a
APPENDIX D
IN THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT
No. 15-70015
CARLOS MANUEL AYESTAS, also known as
Dennis Zelaya Corea,
Petitioner-Appellant
v.
WILLIAM STEPHENS, DIRECTOR, TEXAS
DEPARTMENT OF CRIMINAL JUSTICE,
CORRECTIONAL INSTITUTIONS DIVISION,
Respondent-Appellee
Appeal from the United States District Court
for the Southern District of Texas
ON PETITION FOR REHEARING
AND REHEARING EN BANC
Before DAVIS, SMITH, and SOUTHWICK, Circuit
Judges.
PER CURIAM:
No member of this panel nor judge in regular
active service on the court having requested that the
court be polled on Rehearing En Banc, the Petition for
Rehearing En Banc is DENIED. See Fed. R. App. P.
35; 5th Cir. R. 35.
The Petition for Panel Rehearing is also DENIED.

57a
In the petitions, Ayestas makes two arguments to
which we will respond. First, he alleges errors with
our holding under Rhines v. Weber, 544 U.S. 269
(2005). Specifically, he claims we held that “because
federal habeas counsel did not locate the Siegler
Memo sooner, it was insufficiently diligent under”
Article 11.071 § 5(a)(1) of the Texas Code of Criminal
Procedure. We were not, though, referring to the
diligence of federal habeas counsel in locating the
memo. It was the diligence of Ayestas’s trial counsel
that we were describing. Our analysis is consistent
with Rhines.
Ayestas also points out that he was not in fact
examined by a psychologist in 1997, but we stated he
had been in our opinion. Our analysis is nonetheless
unchanged. In our opinion, we held that even if
Ayestas had shown there had been deficient
performance under Strickland v. Washington, 466
U.S. 668 (1984), he did not show prejudice, that is, a
“substantial, not just conceivable, likelihood of a
different result.” Ayestas v. Stephens, No. 15-70015,
2016 WL 1138855, at *6 (5th Cir. Mar. 22, 2016)
(quoting Cullen v. Pinholster, 563 U.S. 170, 189
(2011)). Ayestas does not challenge this aspect of our
panel opinion.
Our conclusion that Strickland
ineffectiveness was not shown remains unchanged.
FILED June 10, 2016

58a
APPENDIX E
U.S. CONST. AMEND. VI
Jury Trials for Crimes, and Procedural Rights
In all criminal prosecutions, the accused shall
enjoy the right to a speedy and public trial, by an
impartial jury of the State and district wherein the
crime shall have been committed, which district shall
have been previously ascertained by law, and to be
informed of the nature and cause of the accusation; to
be confronted with the witnesses against him; to have
compulsory process for obtaining witnesses in his
favor, and to have the Assistance of Counsel for his
defence.

59a
APPENDIX E
18 U.S.C. § 3599
Counsel for Financially Unable Defendants
(a)(1) Notwithstanding any other provision of law
to the contrary, in every criminal action in which a
defendant is charged with a crime which may be
punishable by death, a defendant who is or becomes
financially unable to obtain adequate representation
or investigative, expert, or other reasonably
necessary services at any time either(A) before judgment; or
(B) after the entry of a judgment imposing
a sentence of death but before the execution
of that judgment;
shall be entitled to the appointment of one or more
attorneys and the furnishing of such other services in
accordance with subsections (b) through (f).
(2) In any post-conviction proceeding under
section 2254 or 2255 of title 28, United States
Code, seeking to vacate or set aside a death
sentence, any defendant who is or becomes
financially
unable
to
obtain
adequate
representation or investigative, expert, or other
reasonably necessary services shall be entitled to
the appointment of one or more attorneys and the
furnishing of such other services in accordance
with subsections (b) through (f).
(b) If the appointment is made before judgment,
at least one attorney so appointed must have been
admitted to practice in the court in which the
prosecution is to be tried for not less than five years,
and must have had not less than three years

60a
experience in the actual trial of felony prosecutions in
that court.
(c) If the appointment is made after judgment, at
least one attorney so appointed must have been
admitted to practice in the court of appeals for not less
than five years, and must have had not less than
three years experience in the handling of appeals in
that court in felony cases.
(d) With respect to subsections (b) and (c), the
court, for good cause, may appoint another attorney
whose background, knowledge, or experience would
otherwise enable him or her to properly represent the
defendant, with due consideration to the seriousness
of the possible penalty and to the unique and complex
nature of the litigation.
(e) Unless replaced by similarly qualified counsel
upon the attorney’s own motion or upon motion of the
defendant, each attorney so appointed shall represent
the defendant throughout every subsequent stage of
available judicial proceedings, including pretrial
proceedings, trial, sentencing, motions for new trial,
appeals, applications for writ of certiorari to the
Supreme Court of the United States, and all available
post-conviction process, together with applications for
stays of execution and other appropriate motions and
procedures, and shall also represent the defendant in
such competency proceedings and proceedings for
executive or other clemency as may be available to the
defendant.
(f) Upon a finding that investigative, expert, or
other services are reasonably necessary for the
representation of the defendant, whether in
connection with issues relating to guilt or the
sentence, the court may authorize the defendant’s

61a
attorneys to obtain such services on behalf of the
defendant and, if so authorized, shall order the
payment of fees and expenses therefor under
subsection
(g).
No
ex
parte
proceeding,
communication, or request may be considered
pursuant to this section unless a proper showing is
made concerning the need for confidentiality. Any
such proceeding, communication, or request shall be
transcribed and made a part of the record available
for appellate review.
(g)(1) Compensation shall be paid to attorneys
appointed under this subsection at a rate of not more
than $125 per hour for in-court and out-of-court time.
The Judicial Conference is authorized to raise the
maximum for hourly payment specified in the
paragraph up to the aggregate of the overall average
percentages of the adjustments in the rates of pay for
the General Schedule made pursuant to section 5305
of title 5 on or after such date. After the rates are
raised under the preceding sentence, such hourly
range may be raised at intervals of not less than one
year, up to the aggregate of the overall average
percentages of such adjustments made since the last
raise under this paragraph.
(2) Fees and expenses paid for investigative,
expert, and other reasonably necessary services
authorized under subsection (f) shall not exceed
$7,500 in any case, unless payment in excess of
that limit is certified by the court, or by the United
States magistrate judge, if the services were
rendered in connection with the case disposed of
entirely before such magistrate judge, as
necessary to provide fair compensation for services
of an unusual character or duration, and the

62a
amount of the excess payment is approved by the
chief judge of the circuit. The chief judge of the
circuit may delegate such approval authority to an
active or senior circuit judge.
(3) The amounts paid under this paragraph for
services in any case shall be disclosed to the public,
after the disposition of the petition.

